No. 20-1738

IN THE

Supreme Court of the United States
JANET L. YELLEN, SECRETARY OF THE TREASURY, ET AL.,
v.

Petitioners,

UNITED STATES HOUSE OF REPRESENTATIVES,
Respondent.
On Petition For A Writ of Certiorari
To The United States Court Of Appeals For
The District Of Columbia Circuit
BRIEF IN OPPOSITION
Carter G. Phillips
Virginia A. Seitz
Joseph R. Guerra
Christopher A. Eiswerth
SIDLEY AUSTIN
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidleyaustin.com

Douglas N. Letter
Counsel of Record
Todd B. Tatelman
Eric R. Columbus
Stacie M. Fahsel
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
5140 O’Neill House
Office Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

QUESTION PRESENTED
Whether, pursuant to United States v. Munsingwear, Inc., 340 U.S. 36 (1950), this Court should
vacate the court of appeals’ judgment that the House
of Representatives had Article III standing to bring
claims alleging that the Executive Branch violated the
Appropriations Clause of the Constitution by spending
funds to construct a border wall in an amount that the
House had specifically refused to appropriate for that
purpose.

ii
TABLE OF CONTENTS
Page
INTRODUCTION ................................................

1

STATEMENT.......................................................

4

REASONS FOR DENYING THE PETITION ....

9

I. THE COURT OF APPEALS’ NARROW
STANDING DECISION WOULD NOT
HAVE WARRANTED REVIEW ..................

9

II. THE EQUITIES HEAVILY WEIGH
AGAINST VACATUR OF THE DECISION
BELOW .........................................................

19

A. The Executive Branch Has Failed To
Show That The Decision Below Will
Cause It Any Prejudice Justifying
Vacatur .....................................................

20

B. The Executive Branch’s Actions And The
Public Interest Also Weigh Against
Vacatur .....................................................

27

CONCLUSION ....................................................

30

iii
TABLE OF AUTHORITIES
Page
Cases
Abbott v. Veasey, 137 S. Ct. 612 (2017) ..................... 10
Alvarez v. Smith, 558 U.S. 87 (2009) ........................ 22
Ariz. State Legislature v. Ariz. Indep.
Redistricting Comm’n,
576 U.S. 787 (2015) .............................................. 24
Azar v. Garza, 138 S. Ct. 1790 (2018) ....................... 19
Camreta v. Greene, 563 U.S. 692 (2011) ............... 9, 21
Comm. on the Judiciary of the U.S.
House of Representatives v. McGahn,
968 F.3d 755 (D.C. Cir. 2020) ...................... 5, 6, 16
Elec. Privacy Info. Ctr. v. Presidential
Advisory Comm’n on Election
Integrity, 139 S. Ct. 791 (2019) ............................ 28
Flast v. Cohen, 392 U.S. 83 (1968) ............................ 23
Izumi Seimitsu Kogyo Kabushiki Kaisha
v. U.S. Philips Corp.,
510 U.S. 27 (1993) ............................................... 29
Karcher v. May, 484 U.S. 72 (1987) .......................... 27
Knote v. United States,
95 U.S. 149 (1877) ................................................ 15
Leedom v. Kyne, 358 U.S. 184 (1958) ........................ 26

iv
Page
Cases—continued
Lujan v. Defs. Of Wildlife,
504 U.S. 555 (1992) .............................................. 18
McGrain v. Daugherty,
273 U.S. 135 (1927) .............................................. 16
NFL v. Ninth Inning, Inc.,
141 S. Ct. 56 (2020) .............................................. 10
Raines v. Byrd, 521 U.S. 811 (1997) ....... 15, 16, 17, 23
Reeside v. Walker,
52 U.S. (11 How.) 272 (1850) ............................... 11
Trump v. Mazars USA, LLP,
140 S. Ct. 2019 (2020) .......................................... 16
U.S. Bancorp Mortg. Co. v. Bonner Mall
P’ship, 513 U.S. 18 (1994) .............................passim
U.S. Dep’t of Navy v. Fed. Lab. Rels.
Auth., 665 F.3d 1339 (D.C. Cir. 2012) ................. 12
U.S. Dep’t of Treasury, Bureau of Alcohol, Tobacco & Firearms v. Galioto,
477 U.S. 556 (1986) .............................................. 28
United States v. Hamburg-Amerikanische Packetfahrt-Actien Gesellschaft,
239 U.S. 466 (1916) .............................................. 19
United States v. MacCollom,
426 U.S. 317 (1976) .............................................. 11

v
Page
Cases—continued
United States v. Microsoft,
138 S. Ct. 1186 (2018) .......................................... 28
United States v. Munsingwear, Inc.,
340 U.S. 36 (1950) .........................................passim
Valley Forge Christian Coll. v. Ams.
United for Separation of Church &
State, 454 U.S. 464 (1982) .................................... 23
Virginia House of Delegates v.
Bethune-Hill, 139 S. Ct. 1945 (2019) ....... 14, 15, 24
Constitution and Statutes
U.S. Const. Art. I, § 8................................................. 11
U.S. Const. Art. I, § 9................................................. 11
5 U.S.C. § 702 et seq................................................... 25
28 U.S.C. § 1491......................................................... 25
Other Authorities
David J. Barron, Waging War (2016) .......................... 4
86 Fed. Reg. 7225 (Jan. 20, 2021) ............................... 9
Josh Chafetz, Congress’s Constitution,
Legislative Authority and the
Separation of Powers (2017)................................. 12

vi
Page
Other Authorities—continued
Andrew O’Reilly, Mulvaney Says Border
Wall Will Get Built, ‘With Or
Without’ Funding From Congress,
Fox News (Feb. 10, 2019),
https://perma.cc/97EA-VXKH ................................ 5
The White House, Veto Message to the
Senate for S.J. Res. 54 (Oct. 15,
2019), https://perma.cc/4TNS-PYH2.................... 17

INTRODUCTION
Citing United States v. Munsingwear, Inc., 340 U.S.
36 (1950), the Executive Branch petitioners seek vacatur of the D.C. Circuit’s decision that the House had
Article III standing to pursue its claims that the former Administration violated the Appropriations
Clause of the Constitution. Although this Court has
recently vacated decisions in several other cases that
became moot after President Biden took office and terminated policies and programs of the former Administration, this case is fundamentally different from
those. Here, the court of appeals issued a narrow decision that addressed only standing, arose out of unprecedented circumstances, and was tied to a particular clause of the Constitution. As a consequence, the
Executive Branch has failed to show that the decision
will cause it any harm. Vacatur is thus unwarranted
and the petition should be denied.
As this Court has explained, it is the “burden” of the
party seeking vacatur to demonstrate “equitable entitlement” to that “extraordinary remedy.” U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship, 513 U.S. 18, 26
(1994). The equities in this case weigh heavily against
vacating the decision and depriving the court of appeals and the public of the opinion below. Crucially,
in the other decisions that this Court recently vacated,
the lower courts’ holdings prejudiced the Executive
Branch through preclusive effect in litigation or substantive constraints on policy discretion. Here, by contrast, the Executive Branch has failed to show the essential element of prejudice. The limited holding of
the court of appeals has no res judicata or other preclusive effect in any ongoing litigation between the
parties. And the Executive Branch has failed to identify any way in which the decision below will restrict

2
or even affect its conduct or freedom of action in the
future, as this Court’s cases require for vacatur.
The precedential impact of the decision below is necessarily limited. The court of appeals issued an interlocutory decision holding only that the House has Article III standing to bring its Appropriations Clause
claims. The court did not address the numerous other
merits and jurisdictional arguments that the Executive Branch has raised, such as whether a cause of action for such a claim exists.
Critically, future courts deciding their jurisdiction
are unlikely to read the court of appeals’ decision as
unmoored from its express limits and the facts that
precipitated this suit, and those facts are extraordinary and unlikely to recur. In particular, the dispute
arose only after the House specifically refused to appropriate the huge sum demanded by then-President
Trump to build a southern border wall, and instead appropriated far less money for construction than the
President had sought. The same day that President
Trump signed an appropriations bill into law providing a specific and limited appropriation for border-wall
construction, he nevertheless announced that he
would spend billions of additional dollars on construction that had been appropriated for other purposes.
Under these remarkable circumstances—unique in
our Nation’s history—the House sued the Executive
Branch under the Appropriations Clause, and the
court of appeals grounded its conclusion that the
House had standing in that particular constitutional
claim and the extraordinary facts of this case.
The Executive Branch provides no reason to think
that anything like the scenario here is likely to play
out again. Indeed, the petition acknowledges that the
decision below was the first appellate decision to adju-

3
dicate a case involving an Appropriations Clause challenge between the political Branches since the Constitution was ratified. See Pet. 6. It is thus wholly speculative whether another suit would arise in which the
decision below would govern the standing analysis,
and that remote possibility is plainly inadequate to
warrant vacatur.
The Executive Branch’s failure to show meaningful
prejudice is alone sufficient reason to deny the petition
based on the equities here. But there is more: the
public interest counsels in favor of preserving the court
of appeals’ narrow opinion—the product of an exceptional expenditure of judicial and party resources—
and the Executive Branch is the party responsible for
the mootness of this case. All of the equities thus
strongly disfavor vacatur, and the petition should be
denied.
Because the Executive Branch has failed to make the
essential showing of equitable entitlement to vacatur,
there is no need to consider whether it has established
another prerequisite for vacatur: that the decision below would have warranted certiorari if the case had
not become moot. But on that score, too, the Executive
Branch’s arguments are unpersuasive.
The interlocutory decision below would not have satisfied the Court’s traditional criteria for certiorari.
The Executive Branch argues only that the court of appeals’ standing decision would have warranted review
because it was wrong. But the petition’s arguments
rest on a serious distortion of the careful opinion written by Judge Sentelle. Contrary to the Executive
Branch’s dramatic prophecy, the decision will by no
means “open the courthouse doors” to “a variety of
suits” against the Executive Branch. Pet. 11. Rather,
the court of appeals issued a narrow opinion resolving

4
the Article III standing of the House to bring an Appropriations Clause challenge. The court carefully
limited its decision to the claim at issue, and expressly
distinguished the very suits that the Executive Branch
is now asserting the opinion will authorize.
Beyond its exaggerations of the court of appeals’
opinion, the Executive Branch has little to say. The
petition contends that the decision below is contrary to
this Court’s precedents, but the court of appeals correctly analyzed those decisions in reaching its conclusion. The decision involved a correct application of this
Court’s case law and Article III standing doctrine in
the context of the Appropriations Clause, a provision
of the Constitution that the Founders understood to
place the power over the purse in the hands of Congress, and to serve as a crucial check on the Executive
Branch.
In short, the Executive Branch fails at every turn to
carry its burden to show that the remedy of vacatur is
warranted here. The Executive Branch’s petition for a
writ of certiorari accordingly should be denied.
STATEMENT
Prior to the last Administration, Presidents had
largely respected Congress’s funding limits for federal
activities. Indeed, when the Civil War broke out during a lengthy Congressional recess, President Lincoln
reluctantly decided to spend federal funds to defend
the country against the insurrection without an express appropriation—but then quickly sought legislative ratification when Congress reconvened. 1
President Trump followed a starkly different path.
After Congress specifically rejected his demand for
1

See, e.g., David J. Barron, Waging War 133-35 (2016).

5
massive funds to construct a southern border wall,
President Trump precipitated the longest government
shutdown in U.S. history to try to force the House of
Representatives to agree to provide more funds. When
the House nonetheless refused to appropriate the
funds the President wanted, he ended the shutdown
but, in signing the ensuing appropriations bill, announced that he would spend billions more on the border wall than Congress had provided. Pet. App. 3a.
The heads of various Departments and their subordinates then proceeded to do just that. As President
Trump’s Acting White House Chief of Staff explained
at the time, the Administration was determined to
build the border wall “with or without Congress.” 2
The House filed this suit in the U.S. District Court
for the District of Columbia, alleging that the Trump
Administration violated the Appropriations Clause of
the Constitution and the Administrative Procedure
Act (APA) by transferring funds appropriated for military spending to build the border wall, in clear defiance of the funding limits Congress had set. Pet. App.
3a-4a. The House moved for a preliminary injunction,
which the district court denied on the ground that the
House lacked standing because it had not been injured. Id. at 26a-56a. The district court therefore dismissed the suit. Id. at 55a-56a.
Extensive appellate proceedings followed. Initially,
a panel of the D.C. Circuit heard oral argument on
February 18, 2020. Before any decision was issued,
the case was set for rehearing en banc together with
Committee on the Judiciary of the U.S. House of Representatives v. McGahn, 968 F.3d 755 (D.C. Cir. 2020),
2 Andrew O’Reilly, Mulvaney Says Border Wall Will Get Built,
‘With Or Without’ Funding From Congress, Fox News (Feb. 10,
2019), https://perma.cc/97EA-VXKH.

6
to consider “the common issue of Article III standing
presented in” the two cases. Pet. App. 60a. In that
proceeding, the Executive Branch argued that neither
a single chamber nor Congress as a whole ever has
standing to sue the Executive Branch for constitutional violations. The en banc D.C. Circuit rejected
those arguments in McGahn. 968 F.3d at 775-78. The
court then remanded this case to the original panel for
resolution in light of McGahn, and the parties provided the court with supplemental briefing on the
question of standing.
In its brief on remand, the Executive Branch argued
that only Congress as a whole can sue for a violation
of the Appropriations Clause. See Supp. Br. for Appellees on Remand From Rehearing En Banc 2-10, No. 195176 (D.C. Cir. Aug. 21, 2020). The Executive Branch
also argued that the House asserted a “generalized
grievance” and that accepting the House’s standing
here would “open the courthouse doors to a sweeping
range” of interbranch confrontations. Id. at 10-11. In
the Executive Branch’s view, the House should instead
use its political tools to address spending by the Executive in violation of the Appropriations Clause. Id. at
12-15.
In response, the House objected to the Executive
Branch’s categorical argument that a single chamber
of Congress can never have standing to sue for a violation of the Appropriations Clause. The House pointed
out that this extreme position would allow the Senate,
by simply declining to join the House’s suit, to acquiesce in Executive Branch spending for a purpose for
which the House had expressly considered and rejected funds. Focusing on the particular features of
the Appropriations Clause and the Trump Administration’s extraordinary actions, the House argued that its

7
injury was concrete and particularized because the Administration’s actions interfered with the House’s
power of the purse—arguably its most potent constitutional power—and because the Constitution grants
each chamber of Congress independent power to limit
spending by the Executive Branch. As the House explained, in light of that unique context, a recognition
of the House’s standing to sue for an Appropriations
Clause violation would not entitle it to bring other
claims, such as a claim that the Executive Branch has
exceeded its statutory authority. See Supp. Br. of Appellants on Remand From Rehearing En Banc 8-9, No.
19-5176 (D.C. Cir. Aug. 21, 2020).
On September 25, 2020, Judge Sentelle, joined by
Judges Millett and Wilkins, held that the House had
standing to bring its claims under the Appropriations
Clause. As required in an appeal of a dismissal for
lack of standing, the court assumed without deciding
that the House was correct on the merits of its claims.
The court of appeals concluded that the House had asserted a concrete and particularized injury “belonging
to the House and the House alone” where the Trump
Administration was spending billions of dollars on border-wall construction “in the face of [the House’s] specific disapproval.” Pet. App. 21a, 24a.
In so holding, the court of appeals relied on the nature and history of the Appropriations Clause, noting
that “the ability to appropriate funds was frequently
cited during the founding era as the premier check on
the President’s power.” Pet. App. 11a-12a. After carefully surveying this Court’s case law, the court of appeals concluded that the House had asserted an institutional injury because the Appropriations Clause is
“an express constitutional prohibition that protects
each congressional chamber’s unilateral authority to

8
prevent expenditures.” Id. at 21a. In other words, because appropriations are necessary to ensure that the
federal government can function, and because both
chambers together must reach agreement on any appropriations, the disapproving chamber has critical
leverage that it lacks with respect to other legislation,
where inaction is an acceptable option. See id. at 9a.
Thus, “unlike the situation in which one chamber of
Congress seeks to enforce a law that it could not have
enacted on its own, a suit to enforce a spending limit
vindicates a decision to block or limit spending that
each chamber of Congress could have effectively imposed—and, in this case, the House did impose—unilaterally.” Id. at 10a.
Further, the court of appeals emphasized the extraordinary facts underlying this dispute. Specifically,
after losing a political fight over border-wall spending
that caused the longest Federal Government shutdown in American history, President Trump opted to
spend billions of dollars that the House had “refused
to allow.” Pet. App. 21a. In these circumstances, the
court of appeals explained, the House demonstrated a
concrete and particularized injury because the President “cut[] the House out of the appropriations process, rendering for naught its vote withholding the Executive’s desired border wall funding.” Id.
Turning to the House’s claims under the APA, the
court of appeals held that the House lacked standing
to pursue those claims. The court reasoned that the
House’s APA allegations did not set forth an injury distinct to the House, and “Congress does not have standing to litigate a claim that the President has exceeded
his statutory authority.” Pet. App. 24a.
The court of appeals vacated the district court’s judgment dismissing the constitutional claims and remanded for further proceedings. The court of appeals

9
did not address any other threshold issues, such as
whether a cause of action exists. Nor did the court
opine in any way on the merits of the House’s constitutional claims—that is, whether the Executive
Branch’s expenditure of funds beyond those authorized by Congress in fact violated the Appropriations
Clause. The court left those questions for remand.
Pet. App. 25a.
The Executive Branch sought rehearing en banc.
The court of appeals denied the petition for rehearing
without any recorded dissent. Pet. App. 57a-58a.
Shortly after his inauguration, President Biden announced that he would not expend funds on further
border-wall construction. 86 Fed. Reg. 7225 (Jan. 20,
2021). On June 11, 2021, the Department of Defense
and the Department of Homeland Security announced
that they had completed their plans for the redirection
of funds that had been made available for border-wall
construction. Pet. 10. The Executive Branch then
filed this petition for a writ of certiorari asking the
Court to grant the petition, simply for the purpose of
vacating the judgment of the court of appeals as moot.
REASONS FOR DENYING THE PETITION
I. THE COURT OF APPEALS’ NARROW
STANDING DECISION WOULD NOT HAVE
WARRANTED REVIEW
As the Executive Branch acknowledges, it is not entitled to vacatur unless it can show that this case
would have warranted the Court’s review had it not
become moot. Pet. 16; see also Camreta v. Greene, 563
U.S. 692, 712 (2011). This case does not meet the
Court’s traditional criteria for certiorari. There is no
conflict among the courts of appeals, and the “interlocutory posture” of the decision below “counsel[s] against

10
this Court’s review.” NFL v. Ninth Inning, Inc., 141 S.
Ct. 56, 57 (2020) (statement of Kavanaugh, J., respecting the denial of certiorari) (stating that the interlocutory nature of the court of appeals’ standing holding
weighed against review); see also, e.g., Abbott v. Veasey, 137 S. Ct. 612, 613 (2017) (statement of Roberts,
C.J., respecting the denial of certiorari) (stating that,
where a case is “in an interlocutory posture, having
been remanded for further consideration … [t]he issues will be better suited for certiorari review” after
such consideration).
The Executive Branch thus spends the majority of
its petition arguing that the court of appeals’ opinion
would have been worthy of certiorari because it conflicts with this Court’s precedents and principles of Article III standing. But those arguments rely on a mischaracterization of the opinion: they overlook the
careful way that the court of appeals limited its ruling
to an Appropriations Clause violation. And the opinion is entirely consistent with this Court’s case law, as
the court of appeals painstakingly explained.
A. As a preliminary matter, the Executive Branch
grossly overstates the breadth of the court of appeals’
opinion. The Executive Branch repeatedly claims, as
it did below, that the decision will “open the courthouse doors” to a “variety” (or a “sweeping range”) of
suits by one House of Congress against the Executive
Branch. Pet. 11, 29. But the Executive Branch’s fears
find no support in the opinion that Judge Sentelle actually wrote.
In unanimously ruling that the House had standing
to bring its suit, the court of appeals carefully cabined
its holding to the Appropriations Clause claim at issue.
It relied on the unique nature of that Clause and the
House’s appropriations power, the specific events that
brought about this lawsuit (including the House’s clear

11
refusal to appropriate the amount of funds that the Executive Branch demanded for border-wall construction), and the Founding-era history and understanding of the Appropriations Clause.
1. As the court explained, “[t]he ironclad constitutional rule” set forth in the Appropriations Clause “is
that the Executive Branch cannot spend until both the
House and the Senate say so.” Pet. App. 22a. “However much money may be in the Treasury at any one
time, not a dollar of it can be used in the payment of
any thing not thus previously sanctioned.” Id. (quoting Reeside v. Walker, 52 U.S. (11 How.) 272, 291
(1850)). The court thus recognized that the Constitution gives each chamber an “ongoing power” to “veto
certain Executive Branch decisions” that each chamber can “exercise independent of any other body.” Pet.
App. 23a.
Likewise, the court of appeals stressed that the Appropriations Clause is an express prohibition on
spending rather than an affirmative authority to enact
legislation. Compare U.S. Const. Art. I, § 9 (enumerating constitutional prohibitions, including the Appropriations Clause) with id. Art. I, § 8 (enumerating Congress’s affirmative powers). “Because the clause is
phrased as a limitation, it means that ‘the expenditure
of public funds is proper only when authorized by Congress, not that public funds may be expended unless
prohibited by Congress.’” Pet. App. 11a (quoting
United States v. MacCollom, 426 U.S. 317, 321 (1976)
(plurality opinion)). The Appropriations Clause thus
gives each chamber of Congress independent power to
prevent federal expenditures—even expenditures the
Executive and the other chamber may favor. See Pet.
App. 11a-13a.
2. Further, in holding that the House alleged a
concrete and particularized injury, the court of appeals

12
emphasized the specific facts that led to this lawsuit.
The court reasoned that the House had asserted an institutional injury because the Executive Branch’s actions “render[ed] for naught [the House’s] vote withholding the Executive’s desired border wall funding.”
Pet. App. 21a. The court explained that, “by spending
funds that the House refused to allow,” the Executive
Branch allegedly “defied an express constitutional prohibition that protects each congressional chamber’s
unilateral authority to prevent expenditures.” Id. As
the court put it, the Executive Branch “cut the House
out of its constitutionally indispensable legislative
role.” Id.
3. The court of appeals also reasoned that historic
separation-of-powers principles “reinforce[d] the
House’s injury in fact.” Pet. App. 22a. As the court
explained, the “ability to appropriate funds was frequently cited during the founding era as the premier
check on the President’s power.” Id. at 11a-12a. Indeed, “the separation of purse and sword was the Federalists’ strongest rejoinder to Anti-Federalist fears of
a tyrannical president.” Id. at 12a (quoting Josh
Chafetz, Congress’s Constitution, Legislative Authority
and the Separation of Powers 57 (2017)). The Appropriations Clause was critically important to the Framers as they carried forward a limitation placed on the
British monarchy following the Glorious Revolution of
1688-89. See Chafetz, supra, at 45-57. As then-Judge
Kavanaugh wrote, the Appropriations Clause is “a bulwark of the Constitution’s separation of powers among
the three branches of the National Government,” and
it “is particularly important as a restraint on Executive Branch officers.” U.S. Dep’t of Navy v. Fed. Lab.
Rels. Auth., 665 F.3d 1339, 1347 (D.C. Cir. 2012); see
Pet. App. 22a.

13
In light of that historical understanding of the Appropriations Clause, the court of appeals recognized
that rejecting the House’s standing here would “rewrite” the Clause—transforming it from a provision allowing the Executive “to expend funds only as specifically authorized” into a provision allowing the Executive to “freely spend Treasury funds as it wishes unless
and until a veto-proof majority of both houses of Congress forbids it.” Pet. App. 22a-23a. That transformation, in turn, would “fundamentally alter the separation of powers by allowing the Executive Branch to
spend any funds the Senate is on board with, even if
the House withheld its authorizations.” Id. at 24a.
4. Despite the court of appeals’ careful and detailed analysis—rooted entirely in the Appropriations
Clause and the House’s alleged injury here—the Executive Branch contends that the opinion’s reasoning
has “no limiting principle” and, alternatively, that the
opinion’s stated limitations are not “meaningful” even
when “taken at face value.” Pet. 20, 22. According to
the Executive Branch, the opinion would allow each
chamber to enforce Executive Branch compliance with
any law—notwithstanding the opinion’s express
terms. Relatedly, the Executive Branch contends that
“virtually any allegation that an agency has exceeded
its statutory authority could be recast as an Appropriations Clause claim.” Pet. 22.
Those arguments are puzzling and incorrect. The
court of appeals expressly disavowed the Executive
Branch’s contention: in rejecting the House’s APA
claim, the court held without qualification that “Congress does not have standing to litigate a claim that
the President has exceeded his statutory authority.”
Pet. App. 24a. Further, the court of appeals’ conclusion that the House has alleged a concrete and particularized injury was tied specifically to the structure

14
and history of the Appropriations Clause and the dynamics of the appropriations process. See pp. 10-13,
supra. The court expressly recognized that “[w]hen
the injury alleged is to the Congress as a whole, one
chamber does not have standing to litigate.” Pet. App.
20a. Plainly, that general rule would apply if a complaint alleged only a violation of law or that the Executive Branch exceeded its statutory authority.
There is thus no truth to the Executive Branch’s hyperbolic claims that the decision will “open the courthouse doors to a sweeping range” of interbranch confrontations, or allow the House to sue “whenever [the
Executive Branch] acts in excess of statutory authority.” Pet. 21, 29. Indeed, the particularized nature of
the standing holding, together with the duty of courts
to make certain of their jurisdiction, ensures that
courts will not ignore the express limits of the opinion
below. See pp. 23-24, infra.
B. The Executive Branch’s arguments that the
court of appeals’ opinion conflicts with this Court’s
precedents are likewise unpersuasive, especially when
the express limits of the opinion are properly considered.
First, relying on the Supreme Court’s decision in Virginia House of Delegates v. Bethune-Hill, 139 S. Ct.
1945 (2019), the Executive Branch contends (Pet. 18)
that there is a “mismatch” between the House and the
Appropriations Clause authority it seeks to vindicate.
But the court of appeals correctly concluded that “this
case bears no resemblance to Bethune-Hill.” Pet. App.
24a. There, the Virginia House of Delegates sought to
defend the constitutionality of a redistricting law that
could be adopted only with the concurrence of both
houses of the Virginia legislature. The “legislative
rights” at issue were “vest[ed] solely in the full ‘legislature as a whole.’” Id. (quoting Bethune-Hill, 139 S.

15
Ct. at 1953-54). By contrast, the House in this case
seeks to vindicate its right to veto spending by the Executive—“a legal interest that it possesses completely
independently of the Senate, or of the Congress as a
whole,” id., and a power that it can wield “fully and
effectively all by itself,” id. at 23a.
The Executive Branch attempts to liken this case to
Bethune-Hill by contending that the House’s claim under the Appropriations Clause is no different from a
claim “alleging that an agency has acted in excess of
any statutory authority.” Pet. 20. But the House
maintained that the Executive Branch had usurped
the House’s constitutional power of the purse after
that power had been firmly exercised to deny spending
authority. That the Executive Branch invoked various
statutes as a defense to the House’s constitutional
claim does not transform that constitutional claim into
a statutory one. Indeed, the Executive Branch will always claim that its spending is authorized by a statute, because it lacks any inherent authority to spend
without one.
The Executive Branch’s argument also ignores the
plain text of the Appropriations Clause, which, as the
court of appeals explained, is a prohibition on spending
by the Executive Branch rather than an affirmative
authority to enact legislation. This distinction is critical. The House’s power to prevent Executive Branch
spending is “[u]nlike the affirmative power to pass legislation.” Pet. App. 23a. The Appropriations Clause
makes clear that the Executive Branch “cannot touch
moneys in the treasury of the United States, except expressly authorized by act of Congress.” Knote v.
United States, 95 U.S. 149, 154 (1877). The refusal to
appropriate funds has constitutional significance and
independent legal force that is absent when Congress
declines to pass general legislation.

16
The Executive Branch also suggests (Pet. 19) that
the appropriations power belongs only to Congress as
a whole because the Constitution does not “explicitly”
authorize the House to act alone. That argument, too,
is wrong. It ignores the dynamics of the appropriations process, which the Framers understood. See p.
12, supra. And it conflicts with this Court’s precedents
recognizing that each chamber possesses its own subpoena power notwithstanding the absence of any “enumerated constitutional power to conduct investigations or issue subpoenas.” Trump v. Mazars USA,
LLP, 140 S. Ct. 2019, 2031 (2020) (citing McGrain v.
Daugherty, 273 U.S. 135, 161 (1927)).
Second, the decision below does not conflict with
Raines v. Byrd, 521 U.S. 811 (1997), where this Court
found that individual legislators—not “authorized to
represent their respective Houses of Congress” and indeed opposed by those Houses—suffered no legislative
injury because the alleged “diminution of legislative
power” was “wholly abstract and widely dispersed”
and thus insufficient to establish legislative standing.
Id. at 821, 829. As the court of appeals noted, this
Court has “made clear that Raines involves the standing of individual legislators, not of legislative institutions.” Pet. App. 15a. The petition’s further argument—that Raines illustrates the importance of “historical practice” in assessing legislative standing (Pet.
23-25)—does not assist the Executive Branch. Indeed,
it is the prior Administration’s unprecedented defiance
of an express spending limit that explains the absence
of historical analogies for the House’s claim. See also
McGahn, 968 F.3d at 776-78 (finding the unprecedented nature of the Administration’s stonewalling of
Congressional investigations explains the infrequency
of subpoena enforcement lawsuits).

17
Relying on Raines, the Executive Branch argues that
the House has “adequate remed[ies]” to prevent the
Executive Branch from spending funds in excess of its
authority. Pet. 25 (quoting Raines, 521 U.S. at 829).
In the Executive Branch’s view, the House should have
used its “political tools,” such as by passing a law confirming that the President lacks authority to spend
funds on a border wall that were not appropriated for
that purpose. Id. at 25-26.
But this case is unusual precisely because the House
did wield its political tools, and the former Administration thwarted them by violating the Appropriations Clause. During the longest federal government
shutdown in American history, the House employed
perhaps its most potent self-help remedy under the
Constitution—withholding appropriations—and brokered a compromise with the Trump Administration
over border-wall spending. The President then declared that his Administration would nevertheless
spend billions of dollars in excess of this compromise.
The House joined with the Senate—twice—to pass legislation terminating the national emergency declaration that serves as a predicate for some of the unlawful
expenditures, but the President vetoed both attempts. 3 In these remarkable circumstances, where
the accommodation process has been exhausted and
the President is alleged to have intentionally defied
the House’s specific refusal to appropriate certain
funds, the House is empowered to seek a judicial remedy.
More fundamentally, the Executive Branch’s insistence that the House rely on its so-called political remedies misapprehends the Appropriations Clause. The
3 See The White House, Veto Message to the Senate for S.J.
Res. 54 (Oct. 15, 2019), https://perma.cc/4TNS-PYH2.

18
Clause gives the House independent authority to prevent the Executive from spending funds. But, as the
Executive Branch would have it, the House could enforce that prohibition only if veto-proof majorities of
both chambers enact a specific statute to override the
Executive’s spending decision. As the court of appeals
recognized, even passing an override statute would not
protect the House’s prerogatives, because “if the Executive Branch ignored that congressional override, the
House would remain just as disabled to sue to protect
its own institutional interests.” Pet. App. 23a. The
court correctly concluded that this result would “turn[]
the constitutional order upside down.” Id.
Third, the petition argues (e.g., Pet. 28) that the decision below conflicts with principles of Article III
standing because the House’s claim is nothing more
than a “generalized grievance” about Executive
Branch compliance with the law. But the court of appeals correctly held that the House’s interest in enforcing funding limits under the Appropriations Clause is
“not a generalized interest in the power to legislate.”
Pet. App. 21a. As the court explained, the Trump Administration’s conduct specifically injured the House
by “rendering for naught its vote withholding the Executive’s desired border wall funding” and its decision
“carefully calibrating what type of border security investments could be made.” Id. The House’s interest
cannot seriously be likened to an “undifferentiated
public interest in executive officers’ compliance with
the law.” Pet. 28 (quoting Lujan v. Defs. of Wildlife,
504 U.S. 555, 577 (1992)).
*****
It is telling that an overwhelming portion of the Executive Branch’s petition is devoted to arguing that the
court of appeals’ decision would have warranted review because it is wrong. Pet. 16-30. Not only is that

19
argument incorrect, see pp. 10-18, supra, but this
Court has made clear that it is “inappropriate … to vacate mooted cases, in which [it has] no constitutional
power to decide the merits, on the basis of assumptions
about the merits.” U.S. Bancorp., 513 U.S. at 27. The
Court should thus decline the Executive Branch’s invitation to grant review for the purpose of vacating the
standing decision below based solely on its view of the
merits.
II. THE EQUITIES HEAVILY WEIGH AGAINST
VACATUR OF THE DECISION BELOW
Assuming arguendo that the decision below would
have been worthy of this Court’s review, the Executive
Branch has nonetheless failed to make the equitable
showing necessary to justify the “extraordinary remedy” of vacatur. U.S. Bancorp, 513 U.S. at 26. Vacatur
is not automatic when a case becomes moot. As this
Court has explained, “not every moot case will warrant
vacatur”; rather, vacatur on mootness grounds “is
rooted in equity” and “the decision whether to vacate
turns on ‘the conditions and circumstances of the particular case.’” Azar v. Garza, 138 S. Ct. 1790, 1792-93
(2018) (per curiam) (quoting United States v. Hamburg-Amerikanische Packetfahrt-Actien Gesellschaft,
239 U.S. 466, 478 (1916)). It is the “burden” of “the
party seeking relief from the status quo of the [lowercourt] judgment” to demonstrate “equitable entitlement to the extraordinary remedy of vacatur” in the
particular case. U.S. Bancorp, 513 U.S at 26.
This Court’s case law establishes that vacatur may
be appropriate where the moot decision will “prejudice[]” the party seeking vacatur, Munsingwear, 340
U.S. at 40; where the party seeking vacatur is not primarily responsible for mooting the case, id.; and where
vacatur is in the public interest, U.S. Bancorp, 513

20
U.S. at 26. In assessing these factors, the Court makes
an “equitable” judgment. Id. at 29. Here, the Executive Branch has not made the requisite showing for vacatur. Indeed, all of the equities conclusively weigh
against such relief, not least because the Executive
Branch has utterly failed to demonstrate that it will be
prejudiced by the decision below.
A. The Executive Branch Has Failed To
Show That The Decision Below Will
Cause It Any Prejudice Justifying
Vacatur
The Executive Branch has not carried its burden to
demonstrate that the court of appeals’ narrow standing decision will “prejudice[]” it—or cause it “hardship”—in any meaningful way. Munsingwear, 340
U.S. at 40, 41. The decision will not impair the Executive Branch’s interests in any ongoing litigation or
constrain its freedom of action. In fact, the Executive
Branch’s only suggestion that it will face any “legal
consequences,” id. at 41, is its theatrical assertion that
the decision will “open the courthouse doors” to a
“sweeping range” of suits by one house of Congress,
Pet. 29. As discussed above, that claim is simply not
correct. See pp. 10-14, supra. Indeed, the difficulty of
showing prejudice here—given the express limits of
the decision below—may be the reason that the petition so strenuously (and inaccurately) proclaims the
breadth of that decision.
A proper reading of the decision below makes clear
that the Executive Branch has failed to demonstrate
prejudice. In concluding that the House had standing,
the court of appeals emphasized the particular constitutional claim at issue and the specific facts that
brought about this suit, which the Executive Branch
does not argue are likely to recur. After all, the decision below was the first time any appellate court had

21
decided this issue. In all events, the mere possibility
that Executive Branch spending decisions could be
subject to judicial review at the behest of a single
chamber of Congress is not a cognizable harm at all,
particularly given the Executive Branch’s concession
that private parties could bring such challenges.
Without any credible demonstration of prejudice, vacatur is inappropriate.
1. This Court’s decisions illustrate the kind of
harm sufficient to support vacatur of a decision that
becomes moot while still on review. In Munsingwear,
the Court focused on the res judicata “hardship” the
United States claimed it would suffer if the moot decision in that case were not vacated. 340 U.S. at 41.
Specifically, the United States sued the respondent to
enjoin violations of a regulation fixing maximum commodity prices and, in a separate count, sought treble
damages for past violations. By agreement and a pretrial order, the second count was held in abeyance
pending trial on the claim for an injunction, which the
government lost on the merits. Thereafter, the regulation that the United States sought to enforce was rescinded by an Executive Order, and the case was
mooted. The res judicata effect of the now-moot judgment foreclosed the United States’ ability to prosecute
its still-pending damages action. The Court explained
that that these “legal consequences” would have entitled the government to vacatur of the judgment to
“clear[] the path for future relitigation of the issues between the parties”—so that no party would be “prejudiced” by the decision. Id. at 40-41. But because the
United States had failed to move for vacatur, it had
forfeited its argument that the Court should exempt it
from the ordinary res judicata consequences. Id.
In later cases, the Court emphasized similar legal
consequences. For example, in Camreta, 563 U.S. at

22
713, the petitioner remained employed as a child protective services worker, and thus would continue to be
governed in his job by a moot Ninth Circuit ruling requiring him to obtain a warrant before conducting an
in-school interview of a minor. Likewise, in Alvarez v.
Smith, 558 U.S. 87 (2009), the Seventh Circuit had
ruled that Illinois’ procedure for challenging seizures
of personal property used to facilitate drug crimes was
inconsistent with the requirements of due process. Id.
at 91, 97. Leaving that determination in place after it
became moot would have interfered with Illinois’ ability to seize and retain such evidence in the future. Vacatur was thus necessary to “clear[] the path for future
relitigation of the issues between the parties,” and
thereby avoid prejudice to the rights of the State. Id.
at 94.
Indeed, the Executive Branch has elsewhere recognized its obligation to show adverse legal consequences
from a moot decision in order to obtain vacatur. In
Mayorkas v. Innovation Law Lab, the Executive
Branch justified vacatur by explaining that “the court
of appeals’ decision affirming the now-moot preliminary injunction interpreted the [Immigration and Nationality Act (INA)] and APA in ways that could have
important ‘legal consequences’ in the future if the decision were allowed to remain in place.” Petitioners’
Suggestion of Mootness and Motion to Vacate 14,
Mayorkas v. Innovation Law Lab, No. 19-1212 (June
1, 2021) (emphasis added). It explained, for example,
that the court’s interpretation of one INA provision
“could restrict the scope of DHS’s contiguous-territoryreturn authority,” thus “calling into question” its programs and actions. Id.; cf. Petitioners’ Motion to Vacate and Remand in Light of Changed Circumstances
11, Biden v. Sierra Club, No. 20-138 (June 11, 2021)

23
(arguing in another case involving border-wall spending that the “permanent injunctive relief that the district court entered, and which the court of appeals affirmed, is no longer appropriate”). In such cases, the
judgment at issue spawned adverse legal consequences in the form of substantive restrictions on the
Executive Branch’s ability to take future actions.
2. By contrast, the standing decision below does
not cause any of the foregoing types of harm, and the
Executive Branch has failed to demonstrate that it will
suffer any cognizable legal consequences from the decision.
First, the Executive Branch does not credibly argue
that the standing decision below will have any meaningful effect on current or future litigation. As a preliminary matter, there is no ongoing litigation between
the parties regarding the Appropriations Clause. And
even with respect to hypothetical future litigation, the
effect of the decision is necessarily limited. The court
of appeals held only that the House had standing to
sue for a violation of the Appropriations Clause. The
decision did not involve an adjudication on the merits
(indeed, the court of appeals did not even rule on
whether the House has a cause of action), and thus the
decision will not impact future litigation of the merits
of any claim under the Appropriations Clause.
On top of that, the unique facts that led to this suit
constrain the precedential impact of the decision below. Article III’s standing requirement “limit[s] the
federal judicial power ‘to those disputes which confine
federal courts to a role consistent with a system of separated powers.’” Valley Forge Christian Coll. v. Ams.
United for Separation of Church & State, 454 U.S. 464,
472 (1982) (quoting Flast v. Cohen, 392 U.S. 83, 97
(1968)). Accordingly, precedents on standing are not
to be “pull[ed] too far from [their] moorings,” Raines,

24
521 U.S. at 825, and instead are often read in light of
their particular facts and context. See, e.g., BethuneHill, 139 S. Ct. at 1953-54 (distinguishing standing decision in Arizona State Legislature v. Arizona Independent Redistricting Comm’n, 576 U.S. 787 (2015),
based on its particular facts).
The decision below arose in the context of the President’s unprecedented expenditure of funds in defiance
of a clear refusal by the House to authorize additional
expenditures for that very purpose. The court of appeals’ reasoning was grounded in those facts: as the
court explained, the House asserted a concrete and
particularized institutional injury because it alleged
that the Executive Branch spent funds “that the House
refused to allow,” thus “rendering for naught its vote
withholding the Executive’s desired border wall funding.” Pet. App. 21a (emphasis added); see also id. (emphasizing that “the injury over which the House is suing” is that the Executive Branch “snatched the
House’s key out of its hands” (emphasis added)).
The Executive Branch fails to show that an Appropriations Clause suit by a single chamber is likely to
arise again, let alone in the context of the remarkable
facts here. In stark contrast to the arguments raised
by the Executive Branch in Mayorkas, the substituted
federal defendants in this case nowhere suggest that
they need or intend to continue the activities that were
challenged in this litigation—or that a future Administration would repeat President Trump’s unprecedented conduct. Rather, this case is similar to Electronic Privacy Information Center v. Presidential Advisory Commission on Election Integrity, where the
United States successfully opposed vacatur of a D.C.
Circuit standing decision because there was “no need
to preserve the ‘path for future relitigation’ between
the parties, since the Commission [at issue] no longer

25
exist[ed] and it [was] purely speculative whether it (or
anything like it) w[ould] ever exist again.” Br. in Opp.
17, No. 18-267 (Nov. 30, 2018).
Second, the Executive Branch does not suggest that
the court of appeals’ standing decision might be used
to “call[] into question” or “cast doubt” on any existing
Executive Branch actions or policies, or any policies it
might conceivably pursue in the future. Petitioners’
Suggestion of Mootness and Motion to Vacate 14,
Mayorkas, supra. Simply put, there is no reason to
suspect that Executive Branch officials will again seek
to spend funds on activities in amounts that Congress
(at the insistence of one chamber) unequivocally and
unmistakably refused to provide, and to spend those
funds immediately after reaching a compromise with
that chamber for a far smaller appropriation in order
to end an extended government shutdown. The Executive Branch thus has not shown any realistic probability that the decision will “spawn[] any legal consequences.” Munsingwear, 340 U.S. at 41.
Third, even if the Executive Branch could argue that
it might be subject to Appropriations Clause suits by a
single chamber of Congress in the future, that alone
would not constitute a cognizable “hardship” justifying
vacatur. Merely being subject to suit by a particular
person or entity is fundamentally different from being
subject to restrictions on primary conduct. The latter
harm flows from substantive rulings, such as interpretations of statutes that the Executive Branch administers, that can interfere with the Executive Branch’s
ability to execute the laws in accordance with its legal
and policy views. By contrast, the Executive Branch
is already subject to suit for a sweeping array of actions it takes, both under statutes such as the APA, 5
U.S.C. § 702 et seq., and the Tucker Act, 28 U.S.C.

26
§ 1491, as well as judicially created doctrines that provide for non-statutory review in certain circumstances,
see, e.g., Leedom v. Kyne, 358 U.S. 184, 190 (1958).
Against this backdrop of comprehensive judicial review of its actions, it would simply be untenable for the
Executive Branch to claim that it suffers hardship
from a narrow standing decision that exposes it to suit
for violations of the Appropriations Clause at the behest of a chamber of Congress.
Indeed, this point is underscored by the arguments
the Executive Branch made below. In those proceedings, it stressed that denying standing to a single
chamber of Congress would not foreclose judicial review of alleged Appropriations Clause violations, because such challenges could be brought by an appropriate private party. See Supp. Br. for Appellees on
Remand From Rehearing En Banc 14 (“litigants who
have thus far challenged the Executive’s expenditures
have either lacked Article III standing or have been
unable to satisfy the zone-of-interests requirement,
but that does not mean that no private party could
ever be a proper plaintiff”). The Executive Branch cannot now not argue that being subject to suit for Appropriations Clause violations at the behest of a chamber
of Congress constitutes a cognizable hardship justifying the extraordinary remedy of vacatur when it has
conceded that it could be haled into court over the exact same conduct at the behest of private individuals.
At bottom, the Executive Branch seeks vacatur
based on nothing more than the mere existence of the
court of appeals’ jurisdictional decision against it,
without demonstrating any likely harmful legal consequences from that decision. If the Executive Branch’s
showing were sufficient here, vacatur would be effectively automatic in every case that becomes moot on
appeal. That is not consistent with the Court’s

27
longstanding approach to vacatur. Because the Executive Branch has not established that it will suffer cognizable harm from the decision below, its request for
vacatur should be denied.
B. The Executive Branch’s Actions And The
Public Interest Also Weigh Against
Vacatur
Other equitable considerations—namely, the actions
of the Executive Branch and the public interest—further seriously undermine the argument that vacatur
is warranted here.
1. Where, as here, the losing party mooted its own
appeal, the equities generally disfavor vacatur. As the
Court has explained, absent “exceptional circumstances,” vacatur of a court of appeals’ judgment in
light of mootness is unwarranted when “the losing
party has voluntarily forfeited” review. U.S. Bancorp,
513 U.S. at 25, 29. “To allow a party who steps off the
statutory path to employ the secondary remedy of vacatur as a refined form of collateral attack on the judgment would—quite apart from any considerations of
fairness to the parties—disturb the orderly operation
of the federal judicial system.” Id. at 27; see also
Karcher v. May, 484 U.S. 72, 83 (1987) (declining to
vacate under Munsingwear following newly-elected
legislators’ decision not to pursue prior officeholders’
appeal).
The Executive Branch argues (Pet. 31) that it should
not be penalized for the changes in policy that accompany changes in Administrations—claiming that, in
such circumstances, a case becomes moot “due to circumstances unattributable to any of the parties,” U.S.
Bancorp, 513 U.S. at 23, or to “vagaries of circumstance,” id. at 25. As a preliminary matter, this Court

28
has expressly reserved the question whether Munsingwear vacatur is appropriate where the Executive
Branch has mooted a case. See id. at 23, 25 n.3;
Karcher, 484 U.S. at 83. But even assuming the Executive Branch does not forfeit a right to vacatur when it
enacts policy changes that moot litigation against a
previous Administration, its decision to do so plainly
does not entitle the new Administration to vacatur. 4
The Executive Branch must show that the parties
have “not merely equivalent responsibility for the
mootness, but equitable entitlement to the extraordinary remedy of vacatur.” U.S. Bancorp, 513 U.S. at
26. It has failed to make the requisite showing. See
pp. 20-27, supra.
Moreover, in another recent case involving a decision
on Article III standing, the Executive Branch opposed
Munsingwear vacatur, arguing in part that “the lower
court’s ruling on an Article III jurisdictional ground
does not warrant a vacatur on a different Article III
jurisdictional ground.” Br. in Opp. 6-7, Elec. Privacy
Info. Ctr., No. 18-267. The Court sided with the Executive Branch, denying certiorari rather than vacating
the decision. See 139 S. Ct. 791 (2019). To be sure, the
lower court in that case had concluded that the petitioner lacked standing, but it makes little sense to al-

4 The Executive Branch relies on this Court’s vacatur of decisions where appeals are mooted after legislatures changed the
relevant law—changes that necessarily render prior precedent
less valuable and potentially inapplicable or misleading. Pet. 3132 (citing United States v. Microsoft, 138 S. Ct. 1186, 1187-88
(2018) (per curiam); and U.S. Dep’t of Treasury, Bureau of Alcohol, Tobacco & Firearms v. Galioto, 477 U.S. 556, 560 (1986)).
These cases are plainly distinguishable from those where the Executive Branch voluntarily changes policy after an election, even
assuming that both types of decisions are made in good faith and
not to thwart appellate review.

29
low the Executive Branch to obtain vacatur of a decision recognizing standing against it and avoid vacatur
of standing decisions favorable to it.
2. Finally, the public interest weighs heavily
against vacatur. Significantly, this Court has recognized that judicial precedents “are presumptively correct and valuable to the legal community as a whole”—
they should thus “stand unless a court concludes that
the public interest would be served by a vacatur.’” U.S.
Bancorp, 513 U.S. at 26 (quoting Izumi Seimitsu Kogyo
Kabushiki Kaisha v. U.S. Philips Corp., 510 U.S. 27,
40 (1993) (Stevens, J., dissenting)). The panel issued
the decision below after extended litigation—including
an en banc hearing and decision in a related case—and
the full D.C. Circuit denied en banc review of the
panel’s decision without any recorded dissent. The
public interest clearly favors the preservation of the
decision below, particularly in light of the Executive
Branch’s failure to show harm flowing from the standing decision in a case that its own actions mooted.
Where, as here, the Executive Branch has not shown
that it will be prejudiced by the lower court’s decision,
and all of the relevant equities counsel against vacatur, that extraordinary remedy is unwarranted.

30
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted.
Carter G. Phillips
Virginia A. Seitz
Joseph R. Guerra
Christopher A. Eiswerth
SIDLEY AUSTIN
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidleyaustin.com

August 30, 2021

Douglas N. Letter
Counsel of Record
Todd B. Tatelman
Eric R. Columbus
Stacie M. Fahsel
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF
REPRESENTATIVES
5140 O’Neill House Office
Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

